               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Officers’ Travel and Representation
       Expenses for Fiscal Year 2011

                       Audit Report




                                          December 19, 2011

Report Number FT-AR-12-008
                                                                 December 19, 2011

                                              Officers’ Travel and Representation
                                                    Expenses for Fiscal Year 2011

                                                      Report Number FT-AR-12-008



IMPACT ON:
U.S. Postal Service officers’ and their   WHAT THE OIG RECOMMENDED:
travel and representation expenses in     We are not making recommendations
fiscal year (FY) 2011.                    because in FY 2011, management
                                          made several staff changes that
WHY THE OIG DID THE AUDIT:                impacted the oversight of the officers
Our objective was to determine whether    travel reimbursement process. Also,
travel and representation expenses        management revised the Guidelines in
claimed by Postal Service officers were   July 2011and will provide necessary
properly supported and complied with      training to the officers and their
Postal Service policies and procedures.   administrative assistants on them by the
                                          end of FY 2012. Additionally, because
WHAT THE OIG FOUND:                       revised Guidelines now require
Officers’ travel and representation       reimbursements based on per diem
expenses totaling about $700,000 were     rather than actual expenses, alcohol as
supported. However, officers did not      part of meal reimbursement claims will
always comply with Officers’ Travel and   no longer be an issue.
Representation Expense Guidelines
(Guidelines) when claiming expenses       WHAT MANAGEMENT SAID:
incurred during official travel and       We provided a draft of this report to
representation. Specifically, we found    management on December 6, 2011,
issues regarding reimbursement claims,    and, because we made no
international travel approval letters,    recommendations, management chose
travel deviation requests, alcohol        not to respond formally.
purchases, and parking fees.


                                          Link to review the entire report
December 19, 2011

MEMORANDUM FOR:             TIMOTHY F. O’REILLY
                            VICE PRESIDENT, CONTROLLER




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Audit Report – Officers’ Travel and Representation
                            Expenses for Fiscal Year 2011
                            (Report Number FT-AR-12-008)

This report presents the results of our audit of the U.S. Postal Service officers’ travel
and representation expenses for fiscal year 2011 (Project Number 11BG008FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Jack L. Meyer
    Corporate Audit and Response Management
Officers’ Travel and Representation                                                                                     FT-AR-12-008
 Expenses for Fiscal Year 2011



                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Travel and Representation Reimbursement Claims .......................................................... 2

International Travel Approval Letters .................................................................................. 3

Travel Deviation Requests .................................................................................................. 3

Alcohol Purchases ............................................................................................................... 3

Parking Fees........................................................................................................................ 4

Observation ......................................................................................................................... 4

   Registration Fees Processed Through eTravel .............................................................. 4

Appendix A: Additional Information..................................................................................... 5

   Background ...................................................................................................................... 5

   Objective, Scope, and Methodology ............................................................................... 5

   Prior Audit Coverage ....................................................................................................... 7
Officers’ Travel and Representation                                                               FT-AR-12-008
 Expenses for Fiscal Year 2011



Introduction

This report presents the results of our audit of the U.S. Postal Service officer’s travel
and representation expenses for fiscal year (FY) 2011 (Project Number
11BG008FT000). The report responds to a request from the Postal Service’s Board of
Governors (Board) to perform annual audits of Postal Service officers’ travel and
representation expenses. 1 Our objective was to determine whether travel and
representation expenses claimed by officers were properly supported and complied with
Postal Service’s policies and procedures. 2 This audit addresses financial risk. See
Appendix A for additional information about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. As part of these audits, the Board adopted
policies and procedures that require annual audits of officers’ travel and representation
expenses.

During FY 2011, the Postal Service made changes to the Postal Service Officers’ Travel
and Representation Expense Guidelines (Guidelines) 3 for officers’ travel and
representation expenses. A postmaster general (PMG) memorandum, dated
July 29, 2011, notified officers that management revised the Guidelines, and included a
copy of the revised document. The revisions incorporated eight major changes,
including reimbursements based on General Services Administration (GSA) per diem
rates 4 rather than actual expenses.

Conclusion

Officers’ travel and representation expenses, totaling about $700,000, were supported.
However, officers did not always comply with the Guidelines when claiming expenses
incurred during official travel and for representation. Specifically, we reviewed 68 of the
972 total reimbursements and found 17 issues regarding reimbursement claims,
international travel approval letters, travel deviation requests, alcohol purchases, and
parking fees. Although these instances did not materially affect the overall financial
statements, officers not only shape the strategic direction of the Postal Service by
setting goals, targets, and indicators within the framework established by the Board but
also set the tone at the top of the organization. Accordingly, they must always follow
established Guidelines to set an excellent standard for the rest of the Postal Service.
The PMG issued revised Guidelines to all officers in April 2009, and management
trained officers’ administrative assistants on them, so they should be aware of the


1
  Representation expenses nearly always involve one or more non-Postal Service employees (suppliers, customers,
and foreign postal administrators) and a Postal Service officer.
2
  The audit universe was limited to reimbursements processed through the eTravel System.
3
  Guidelines issued on April 13, 2009, revised July 29, 2011, and effective August 1, 2011.
4
  Per diem covers all meals, dry cleaning, skycap/bellhop tips, newspapers, and other incidentals.
                                                           1
Officers’ Travel and Representation Expenses for                                                         FT-AR-12-008
 Fiscal Year 2011


requirements. All the issues reported were related to the Guidelines in effect since that
time.

In the past, we found an accountant familiar with the Guidelines did an excellent job in
her oversight role of ensuring officers’ compliance with the Guidelines. However, as part
of an organizational realignment, management selected a new manager and detailed at
least four different accountants throughout the fiscal year for oversight of the travel
reimbursement claim review process. Management stated they will select a permanent
accountant in December 2011 and provide that individual necessary training. The
accountant will then provide training to the officers and their administrative assistants on
the revised Guidelines no later than September 2012. Additionally, because revised
Guidelines now require reimbursements based on per diem rather than actual
expenses, alcohol as part of meal reimbursement claims will no longer be an issue. As
a result, we did not make recommendations at this time. However, we will continue to
monitor this area as part of our ongoing financial statement audit work.

Travel and Representation Reimbursement Claims

On nine separate occasions of the 68 reviewed, officers did not submit claims for travel
and representation reimbursements timely. For six of these instances, officers initially
submitted incorrect claims that were returned by Corporate Accounting, so they had to
be resubmitted. The Guidelines state that reimbursement claims must be submitted
within 1 month of travel. 5 Of the five officers that did not submit timely claims, one officer
submitted claims outside the required timeframe on three separate occasions; two
officers each submitted two claims outside the required timeframe, and two other
officers each submitted one claim outside the required timeframe. When officers do not
submit reimbursements timely, there is an increased risk the Postal Service’s financial
reports will not accurately reflect period expenses. Table 1 summarizes the
occurrences.

                                  Table 1: Claims Not Submitted Timely

          Number                 Trip Ending Date                  Submission Date                   Days Late
            1*                     June 18, 2010                    October 7, 2010                     79
            2                    February 28, 2011                   April 29, 2011                     31
            3                     March 3, 2011                      April 29, 2011                     26
            4*                   February 10, 2011                    March 23,11                       13
            5*                      April 7, 2011                     May18, 2011                       11
            6*                      May 5, 2011                      June 16, 2011                      11
            7*                      May 5, 2011                      June 16, 2011                      11
            8*                     June 10, 2011                     July 14, 2011                       4
            9                   September 25, 2010                 October 29, 2010                      4
* Claims initially submitted timely but returned for correction.
Source:eTravel System.



5
    Guidelines, dated April 13, 2009, page 1, and revised Guidelines, dated July 29, 2011, page 1.



                                                             2
Officers’ Travel and Representation Expenses for                                                      FT-AR-12-008
 Fiscal Year 2011


International Travel Approval Letters

On two separate occasions of 12 reviewed, officers either did not attach the approval
letter for international travel to the expense report or they did not submit it timely. On
one occasion, although the letter was on file, Corporate Accounting personnel did not
attach the approval letter to the expense report. When we discussed this issue with
Corporate Accounting personnel, they attached the letter to the expense report. On
another occasion, an officer submitted the approval letter 9 days in advance of the
travel instead of the required 21 days. Handbook F-15 6 states that a copy of the
approval letter must be attached to expense reports, and foreign travel authorization
procedures issued by the PMG require approval letters to be submitted 21 days in
advance of requested foreign travel dates. 7 When personnel do not follow international
travel authorization procedures, there is an increased risk travel may occur that is not
critical to the overall business purpose.

Travel Deviation Requests

On one occasion of 68 reviewed, an acting officer did not obtain preapproval for a travel
deviation. The acting officer changed the official itinerary for personal reasons and did
not believe a deviation letter was required, because the change did not result in any
increased travel costs. However, we did not find any documentation with the
reimbursement request to verify the costs. Guidelines 8 require travel deviations be
preapproved in writing and, depending on the amount of the deviation, must be
preapproved by either the vice president, controller, or manager, Corporate Accounting.
When employees do not obtain pre-approval for travel deviations, there is an increased
risk that employees may improperly obtain personal benefits and rewards or may
conceal details of unauthorized travel.

Alcohol Purchases

On four separate occasions of 68 reviewed, officers claimed wine or hard liquor as a
reimburseable expense. In one instance, three officers were attending the National
Postal Forum and purchased a bottle of wine with their meals while at dinner together
after the conference. We did not find any documentation provided with the
reimbursement claim indicating their meals were part of a working meeting. Had this
documentation been provided, the expense would have complied with Postal Service
policies. 9

In two instances, officers were reimbursed for wine or beer purchased with their meals
while on official travel although the purchases were not related to any officer-approved



6
  Travel and Relocation, dated May 2010, Section 4-1.3.1.
7
  PMG memorandum, Update to Foreign Travel Authorization Procedures, dated December 23, 2010.
8
  Guidelines, dated April 13, 2009, page1, Deviations, and revised Guidelines, dated July 29, 2011, page 9, Other
Documentation.
9
  Management Instruction FM-640-2008-1, Expenses for Internal and External Events, dated September 10, 2008.



                                                         3
Officers’ Travel and Representation Expenses for                                                       FT-AR-12-008
 Fiscal Year 2011


internal or external event. Postal Service policy allows purchases of wine and beer to be
served with officer-approved internal or external events. 10

Finally, an officer claimed hard liquor purchased at a representation function that did not
include international guests. At the time of this event, the Guidelines 11 did not allow for
purchases of hard liquor for any officer-approved functions related to a business activity.
When officers do not follow established Guidelines for alcohol purchases, they are not
setting a standard of excellence for the rest of the organization.

Parking Fees

An officer claimed parking expenses not associated with official business as a
reimburseable expense. The officer was in the company of a person with whom the
Postal Service conducts official business .When this individual fell ill and was
transported to the hospital, the officer visited the individual twice at the hospital and
claimed parking expenses for the visits. Guidelines 12 allow reimbursement only for
travel expenditures incurred during official travel.This expense is not reimbursable
because it is a personal and not an official business-related expense. When officers
claim unofficial business-related expenses, this increases operation costs at a time
when the Postal Service is under severe financial stress.

Observation

Registration Fees Processed Through eTravel

Personnel processed two conference/registration fees through eTravel and charged
them to a general ledger (GL) account related to domestic travel other than training,
instead of a GL account related to meetings and conferences. The Guidelines 13 allow
for the reimbursement of conference registration fees and other costs related to
attending conferences in the domestic travel GL account. However, although this is an
allowable expense, management should consider requiring officers to process
conference registration fees through the eBuy2 system 14 so the expense is allocated to
the relevant GL account, and management can better manage costs associated with
both domestic travel and meetings and conferences.




10
   Management Instruction FM-640-2008-1.
11
   Guidelines, dated April 13, 2009, page 5, Meals, item number 4, did not allow for purchase of hard liquor. Revised
Guidelines, dated July 29, 2011, page 7, Representation, item 4, allow hard liquor only if there are international
guests, as appropriate for the occasion.
12
   Guidelines, dated April 13, 2009, page1, and revised Guidelines, dated July 29, 2011, page 9.
13
   Guidelines, dated April 13, 2009, page 5, Other Reimbursable Expense, and revised Guidelines, dated July 29,
2011, page 7.
14
   The official tool for ordering goods and services and requesting certain payments.


                                                          4
Officers’ Travel and Representation Expenses for                                                        FT-AR-12-008
 Fiscal Year 2011


                                 Appendix A: Additional Information

Background

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. As part of these audits, the Board adopted
policies and procedures that require annual audits of officers’ travel and representation
expenses.

Officers shape the strategic direction of the Postal Service by setting goals, targets, and
indicators within the framework established by the Board. Their positions are classified
as Postal Career Executive Service II and include the PMG, deputy PMG and all vice
presidents. The Board has authorized 50 Postal Service officer positions.

During FY 2011, the Postal Service made changes to the Guidelines for officers’ travel
and representation expenses. A PMG memorandum dated July 29, 2011, notified
officers of revised Guidelines, and included a copy of the document. The revisions
incorporated eight major changes, including reimbursements based on GSA per diem
rates rather than actual expenses.

Officers are also reimbursed for representation expenses incurred with customer,
industry, or employee groups with whom the Postal Service conducts official business.
Postal Service policy requires officers to claim reimbursement for all travel and
representation expenses through the eTravel system. 15

Objective, Scope, and Methodology

Our audit objective was to determine whether travel and representation expenses
claimed by Postal Service officers were properly supported and complied with Postal
Service policies and procedures. In support of this objective, we judgmentally sampled
and reviewed 68 reimbursements totaling about $138,000, 16 a minimum of 15 each
quarter, out of a universe of 972, totaling about $700,000. The universe of
reimbursements was from October 1, 2010, through September 30, 2011. We used the
following as our criteria in evaluating reported expenses:

        Postal Service Guidelines issued by the PMG on April 13, 2009, and revised on
         July 29, 2011.
        Handbook F-15, Travel & Relocation, updated with Postal Bulletin revisions
         through March 24, 2011.
        Management Instruction FM-640-2008-1, Expenses for Internal and External
         Events, dated September 10, 2008.



15
   Online application used to create work travel expenses reports, electronically submit expense reports to authorized
approvers, and track reimbursement status.
16
   We included at least one reimbursement for each officer and all reimbursements of $7,000 and above.


                                                          5
Officers’ Travel and Representation Expenses for                              FT-AR-12-008
 Fiscal Year 2011


We conducted this performance audit from January through December 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We provided a draft of this
report to management on December 6, 2011, and because we made no
recommendations, management chose not to respond formally.

Our tests of controls were limited to those necessary to achieve our audit objective. Our
procedures were not designed to provide assurance on internal controls. Consequently,
we do not provide an opinion on such controls. Also, our audit does not provide
absolute assurance of the absence of fraud or illegal acts, due to the nature of evidence
and the characteristics of such activities.

We relied on computer-generated data from the Accounting Data Mart (ADM) and
eTravel systems. We assessed the reliability of these system’s data by tracing the
68 travel reimbursement amounts claimed in eTravel to data in the ADM system.
Moreover, we verified the travel reimbursement amounts were posted to the appropriate
GL accounts in ADM. We determined the data were sufficiently reliable for the purposes
of this report.




                                                   6
      Officers’ Travel and Representation Expenses for                                  FT-AR-12-008
       Fiscal Year 2011


      Prior Audit Coverage

                                            Final        Monetary
                      Report               Report         Impact
  Report Title        Number                Date                                Report Results
Postal Service     FT-AR-11-003           12/6/2010          None   Based on the sample results, officers’
Officers’ Travel                                                    travel and representation expenses
and                                                                 totaling about $628,000 were properly
Representation                                                      supported and complied with Postal
Expenses                                                            Service policies and procedures. We
for Fiscal Year                                                     made no recommendations.
2010
Postal Service     FT-AR-10-007            2/2/2010          None    Based on the sample results, officers’
Officers’ Travel                                                     travel and representation expenses
and                                                                  totaling about $567,000 were
Representation                                                       supported. We also noted the Postal
Expenses                                                             Service significantly reduced its
for Fiscal Year                                                      expenses, from a high of about $1.3
2009                                                                 million in FY 2005. We made no
                                                                     recommendations.
Postal Service     FT-AR-09-006           1/20/2009          None   Based on the sample results, officers’
Officers’ Travel                                                    travel and representation expenses
and                                                                 totaling about $1.2 million were
Representation                                                      generally supported. However, we
Expenses                                                            found written preauthorizations were
for Fiscal Year                                                     not always obtained for domestic First-
2008                                                                Class™ airfare or for attendance of
                                                                    spouses at official events and spousal
                                                                    expenses were sometimes claimed in
                                                                    eTravel. Also, officers did not always
                                                                    use government travel cards or submit
                                                                    timely claims. Management agreed
                                                                    with our recommendation and
                                                                    conducted refresher training on proper
                                                                    travel procedures. Accordingly, this
                                                                    recommendation was closed.




                                                         7
